AUGUST 9, 2012
  AUDIT REPORT




                                                      OFFICE OF AUDITS




       NASA’S INFRASTRUCTURE AND FACILITIES:
          AN ASSESSMENT OF THE AGENCY’S
         REAL PROPERTY LEASING PRACTICES




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-12-020 (ASSIGNMENT NO. A-11-018-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

BW           Business Warehouse
C.F.R.       Code of Federal Regulations
EUL          Enhanced Use Lease
FY           Fiscal Year
GAO          Government Accountability Office
GSA          General Services Administration
NAII         NASA Advisory Implementing Instruction
NPD          NASA Policy Directive
NPR          NASA Procedural Requirements
OIG          Office of Inspector General
OMB          Office of Management and Budget
OPF3         Orbiter Processing Facility 3
RFP          Request for Proposal
RPMS         Real Property Management System
SAAM         Space Act Agreement Maker
U.S.C.       United States Code


                                                      REPORT NO. IG-12-020
AUGUST 9, 2012




                                                                                          OVERVIEW

  NASA’S INFRASTRUCTURE AND FACILITIES: AN ASSESSMENT
    OF THE AGENCY’S REAL PROPERTY LEASING PRACTICES

                                                                                            The Issue

  For the past several years, the Government Accountability Office (GAO) and Congress
  have identified real property management as a high-risk area in agencies across the
  Federal Government. NASA is no exception. The Agency’s real property inventory
  consists of more than 100,000 acres, including more than 44 million square feet within
  approximately 5,000 buildings and other structures. Over 80 percent of these facilities
  are 40 or more years old, and NASA faces a backlog of deferred maintenance totaling
  $2.5 billion.1 Moreover, the NASA Authorization Act of 2010 called for a reduction in
  NASA’s real property to fit current and future missions and expected funding levels.
  Against this backdrop, NASA is undergoing changes in mission focus and operating
  under constrained budgets. Given these challenges, NASA managers must balance
  reducing the Agency’s real property footprint with ensuring that the Agency retains and
  maintains currently underutilized facilities that it may later need to support future
  missions.

  Real Property Agreements. NASA has several options when it identifies real property
  as underutilized, including retaining the property in its present state, demolition,
  transferring the property to the General Services Administration (GSA) for sale or
  transfer to another entity, or making the property available for lease. In this audit, we
  focused on NASA’s leasing program.

  Leasing underutilized real property has several benefits. First, leases may generate
  revenue the Agency can use to help reduce overhead expenses and defray the costs of
  maintaining and improving aging infrastructure. Second, leasing enables NASA to keep
  in its inventory facilities that although currently underutilized may be needed for future
  missions.

  However, NASA must be careful to ensure that leasing does not replace its responsibility
  to dispose of property that is truly no longer required to meet current or future mission




  1
      NASA defines deferred maintenance as the essential but unfunded work necessary to bring its Centers up
      to required standards.



REPORT NO. IG-12-020
                                                                                                           OVERVIEW



     needs. 2 Furthermore, poor implementation and execution of its leasing program could
     result in NASA not realizing the program’s full benefits or lead to financial losses to the
     Agency.

     As of September 2011, NASA had 430 leasing agreements of various types with outside
     entities at 9 of its 10 Centers. 3 The agreements included reimbursable and
     nonreimbursable agreements, concessionaire agreements, easements, and Enhanced Use
     Leases (EULs), and their scope varied from a single office in a facility to a lease for more
     than 75 acres of land. 4 For purposes of this report, we are using the term “lease” to refer
     to any type of real property agreement, (also referred to as an “out-grant” in NPR
     8800.15B), including easements, concessionaire agreements, nonreimbursable
     agreements, reimbursable agreements, or EULs, that allows others to use NASA real
     property. A description of the different types of leasing agreements follows:

            •   Easements. NASA grants an entity a temporary or permanent right to use real
                property for a specific purpose. For example, NASA granted an easement to the
                Southeast Louisiana Flood Protection Authority for a flood protection levee at its
                Michoud Assembly Facility.

            •   Concessionaire Agreements. A private business, such as a gift shop or food
                service vendor, operating at a NASA Center.

            •   Nonreimbursable Agreements. NASA and one or more agreement partners are
                involved in a mutually beneficial activity that furthers the Agency’s mission, with
                each party bearing its own costs and no exchange of funds between the parties.
                For example, NASA has a nonreimbursable agreement with the Ames Child Care
                Center.

            •   Reimbursable Agreements. NASA makes land or facilities available to a third
                party and the third party pays NASA for the right to use the property. For
                example, NASA has multiple agreements with the Navy for the use of buildings
                and land at Stennis Space Center (Stennis). Unless the agreements are enhanced
                use leases (discussed below), NASA must remit any revenues it receives from
                non-Federal entities in excess of its costs to the U.S. Treasury.


     2
         Title 40, United States Code (U.S.C.), Section 524, requires that each Executive agency maintain
         adequate inventory controls and accountability systems for property under its control, continuously
         survey property under its control to identify excess property, and promptly report excess property to the
         Administrator of General Services. NASA Procedural Requirements 8800.15B, “NASA Real Property
         Management,” June 21, 2010, further requires NASA Centers to identify property that does not meet a
         current or future mission need and take actions to dispose of unneeded real property.
     3
         Dryden Flight Research Center was the only Center that had no lease agreements at the time of our audit
         fieldwork.
     4
         NASA’s reimbursable and nonreimbursable agreements are primarily entered into under the authority of
         the National Aeronautics and Space Act. However, NASA can also enter into agreements under other
         authorities, such as the National Historical Preservation Act.



ii                                                                                          REPORT NO. IG-12-020
OVERVIEW



         •   Enhanced Use Leases (EULs). Agreements that allow NASA to retain proceeds
             in excess of its costs rather than remitting them to the Treasury.

  Evolution of Enhanced Use Leases. NASA first received EUL authority as part of the
  Consolidated Appropriations Resolution of 2003, which enabled it to lease underutilized
  real property at Ames Research Center (Ames) and Kennedy Space Center (Kennedy) to
  private entities for cash or in-kind consideration and retain the proceeds. 5 In 2008,
  NASA received EUL authority for all its Centers; however, the legislation only permitted
  the Agency to accept cash payments and not in-kind consideration. 6 In November 2011,
  the law was amended again to allow NASA to accept in-kind consideration, but only as it
  relates to the development of renewable energy production facilities. 7

  The decision of whether to retain and lease or dispose of a particular piece of real
  property involves a difficult balancing act for NASA. On one hand, leasing can generate
  revenue to offset facilities operations and maintenance costs and potentially reduce a
  portion of the Agency’s deferred maintenance liability. On the other hand, entering into
  lease agreements for property that has no identified mission use cuts against the Agency’s
  efforts to reduce its real property footprint and diverts attention and resources away from
  its core space, aeronautics, and science missions. In addition, because leasing is not a
  long-established NASA function, the Agency’s guidance and the experience of its
  personnel in this area are still evolving.

  In this audit, we examined NASA’s leasing program and reviewed leasing operations at
  selected Centers and component facilities: Ames; Glenn Research Center (Glenn) and its
  Plum Brook Station; Kennedy; Michoud Assembly Facility (Michoud) (a component of
  Marshall Space Flight Center); and Stennis. Specifically, we assessed whether NASA
  effectively (1) identified space available for lease to other entities, (2) marketed available
  space to potential Federal and non-Federal tenants, (3) established internal controls to
  ensure that lease agreements provide the best value to the Government and are fair to
  potential tenants, and (4) accounted for in-kind consideration received from EULs.
  Details of the audit’s scope and methodology are in Appendix A.

                                                                                                      Results

  Although NASA has made improvements to its leasing program in recent years, the
  Agency still faces significant challenges to ensure that it has effective controls in place to
  maximize the benefits of its leasing program. Specifically, we found that NASA did not

  5
      Public Law 108-7, “Consolidated Appropriations Resolution, 2003,” February 20, 2003. The in-kind
      consideration could come in the form of maintenance, construction, modification, or improvement of
      facilities on real property under the jurisdiction of the Administrator, or the provision of services to
      NASA including use by NASA of facilities built by the tenant on the property.
  6
      Public Law 110-161, “Consolidated Appropriations Act, 2008,” December 26, 2007.
  7
      Public Law 112-55, “Consolidated and Further Continuing Appropriations Act, 2012,” November 18,
      2011.



REPORT NO. IG-12-020                                                                                             iii
                                                                                                        OVERVIEW



     have clear guidance to ensure that property identified for leasing was not excess to the
     Agency’s needs. 8 We also determined that NASA lacked a complete inventory of space
     available for lease as well as an effective marketing program to attract potential tenants.
     Further, we found various internal control weaknesses that limit NASA’s ability to ensure
     that leases provide the best value to the Agency and are fair to its partners and potential
     partners. Finally, we found that while NASA’s reporting of in-kind consideration in its
     financial statements is improving, the Agency’s existing guidance does not ensure that
     the types of in-kind consideration NASA accepts actually benefit the Agency. Absent
     better controls and improved guidance, NASA will be hard-pressed to maximize the
     potential of its leasing program to help reduce the cost of maintaining underutilized
     facilities while meeting its obligation to ensure that leasing does not become a substitute
     for disposing of excess property.

     NASA Guidance for Identifying Property for Lease Is Unclear and Ineffective

     Although NASA has made improvements to its leasing guidance, the Agency faces
     significant challenges in identifying real property that is appropriate for leasing. For
     example, we found that the NASA Centers have few incentives to declare underutilized
     property excess to their needs so that it may be removed from NASA’s inventory. We
     also found that NASA lacks clear guidance for assisting Agency personnel in determining
     whether property is necessary to meet the Agency’s current or future mission needs.
     While NASA revised its leasing policy in June 2010 in an attempt to ensure that real
     property considered for leasing has a current or future use, the 2010 policy does not
     adequately describe the criteria the Centers should use to make this determination.

     NASA Lacks Comprehensive Inventory of Property Available for Lease

     NASA does not have a complete inventory of property available to lease, which hinders
     its ability to advertise to potential tenants or provide effective oversight of its leasing
     efforts. Managers at Ames, Kennedy, and Stennis had only partial inventories of
     buildings or land available for lease while managers at Glenn and Michoud could not
     provide us with any formal inventory of their available properties. Without compiling a
     complete inventory of available space, NASA cannot maximize its potential leasing
     opportunities.

     Centers Did Not Adequately Market Their Properties for Leasing

     The Centers we visited generally relied on informal “word-of-mouth” efforts to attract
     potential tenants. However, NASA is not taking other steps that could help the Agency
     better market its leasing opportunities to both Federal and non-Federal entities. For
     example, NASA has not coordinated with the GSA Office of Client Solutions to identify
     potential Federal tenants. Indeed, we found that most of the Center personnel we spoke
     with were not aware they could coordinate with GSA about this issue. In addition, when
     8
         Excess property means property under the control of a Federal agency that the head of the agency
         determines is no longer required to meet the agency’s needs.



iv                                                                                        REPORT NO. IG-12-020
OVERVIEW



  seeking non-Federal tenants, the Centers had not consistently publicized leasing
  opportunities to the broadest possible audience. Accordingly, NASA may not be fully
  realizing the potential of its leasing program to defray the costs of maintaining its aging
  infrastructure or help consolidate Government-wide real property inventories.

  Internal Controls Need Strengthening to Ensure the Best Value to the Government and
  Fairness to Partners

  At the five Centers we visited, we found a variety of internal control weaknesses that
  hinder NASA’s ability to ensure that real property leases provide the best value to the
  Government and are fair to all parties. 9 Specifically, we found that (1) the Centers did
  not consistently use competition for agreements with non-Federal entities, (2) three of the
  Centers did not conduct a required market analysis or used the analysis inappropriately
  when developing pricing, and (3) three of the Centers entered into lease agreements
  signed by unauthorized personnel.

  These conditions occurred due to inadequate internal controls, including a lack of
  training, guidance, and documentation. As a result, personnel were unsure about how
  and when to use competition, when to use market analysis to develop pricing, and who
  has proper signature authority. Without stronger internal controls, it will be difficult for
  NASA to ensure that the Agency is receiving the highest return from its real property
  agreements and that the agreements are legally binding.

  NASA’s Reporting of In-Kind Consideration Is Improving but In-Kind Benefits Were
  Not Consistently Realized

  NASA is improving its reporting of in-kind consideration in its financial records, and the
  Centers have achieved some in-kind benefits through EUL agreements. However, out of
  the eight in-kind agreements we reviewed, NASA did not receive any benefit from one
  agreement and received only limited benefit from five others. For example, Ames leased
  land for the placement of two satellite antennas and accepted the part-time use of the
  antennas as in-kind consideration. However, NASA has not used the transmission
  frequencies available through the antennas over the past four years. Without improved
  guidance, NASA may not realize the full benefits of its in-kind authority.

                                                                                            Conclusion

  NASA faces significant challenges as it works to comply with the 2010 Authorization
  Act directive to reduce its infrastructure at a time when mission requirements are still
  evolving and somewhat uncertain. Given these challenges, it is important that NASA
  consider an array of options to manage its underutilized real property, including leasing it
  to other entities. Properly implemented, leasing can generate revenue to offset facilities
  9
      The best value is the most advantageous balance of revenues and compatibility with NASA mission
      achieved through competitive methods that provides the greatest overall benefit to the Government.



REPORT NO. IG-12-020                                                                                       v
                                                                                           OVERVIEW



     operations and maintenance costs and potentially reduce the Agency’s deferred
     maintenance liability. However, NASA must be careful not to use leasing as a substitute
     for excessing property for which it has no current or expected future mission use.
     Leasing property in such circumstances frustrates the Agency’s efforts to reduce its real
     property footprint and can divert effort and resources from its core missions. As NASA
     considers expanding its leasing agreements to help manage its infrastructure challenges,
     the Agency should strengthen its guidance, training, and documentation requirements to
     ensure it is receiving the highest possible benefits from its lease agreements and that the
     agreements are made in the most transparent manner to ensure fairness to all parties.

     Management Action

     To improve management of NASA’s real property leasing program, we recommended
     that the Associate Administrator for Mission Support revise existing policy and develop
     new policy:

        •   articulating the criteria Centers should use to determine whether underutilized
            property has a current or future mission use;

        •   requiring that Federal entities be considered for leasing opportunities and that
            NASA coordinate with the GSA Office of Client Solutions to identify potential
            Federal tenants;

        •   requiring that leasing opportunities be widely publicized;

        •   providing guidance for Center management addressing the requirements for lease
            agreements; and

        •   providing guidance for determining whether in-kind consideration provides the
            best value to the Government.

     In addition, the Associate Administrator should coordinate with the Centers to implement
     a process for identifying and maintaining a complete inventory of real property available
     for leasing. Finally, the Associate Administrator should institute a review of all existing
     agreements to ensure they are consistent with applicable statutes and regulations
     regarding signature authority and other required terms.

     In response to a draft of this report, the Associate Administrator concurred with our
     recommendations to clarify the criteria Centers should use to determine if underutilized
     property has a current or future mission-related use, maintain a complete inventory of real
     property available for leasing, and review all real property agreements to ensure they are
     consistent with applicable statutes and regulations. The Associate Administrator partially
     concurred with our other recommendations, stating that while NASA’s current policy
     addresses these issues, he agreed that the policies could be strengthened to better
     articulate that Federal entities be considered for leasing opportunities; require that leasing


vi                                                                            REPORT NO. IG-12-020
OVERVIEW



  opportunities be widely publicized; provide guidance for Center management addressing
  the requirements for lease agreements; and provide guidance for determining whether
  in-kind consideration provides the best value to the Government.

  We question why NASA characterized its responses to five of our eight recommendations
  as partial concurrences when the Agency agreed in each instance that its policy could “be
  strengthened” and agreed to take corrective action. Nevertheless, because we find that
  the Agency’s proposed actions address the intent of our recommendations we are
  resolving all eight recommendations and will close them upon completion and
  verification of the proposed corrective actions.

  As NASA considers expanding its leasing agreements to help manage its infrastructure
  challenges, the establishment and clarification of guidance, training, and documentation
  requirements will help ensure that the Agency is receiving the highest possible benefits
  from its lease agreements and that the agreements are made in the most transparent
  manner to ensure fairness to all parties.




REPORT NO. IG-12-020                                                                          vii
AUGUST 9, 2012




                                                          CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 4

  RESULTS
      NASA Guidance for Identifying Property for Lease Is Unclear and
        the Agency Lacks a Comprehensive Inventory of Property
        Available for Leasing ________________________________ 6
      Centers Did Not Adequately Market Their Properties for
        Leasing _________________________________________ 13
      Internal Controls Need Strengthening to Ensure the Best
         Value to the Government and Fairness to Partners for
         Real Property Agreements___________________________ 16
      NASA’s Reporting of In-Kind Consideration Is Improving but
        In-Kind Benefits Were Not Consistently Realized _________ 24

  APPENDIX A
      Scope and Methodology _______________________________ 27
      Review of Internal Controls ____________________________ 29
      Prior Coverage ______________________________________ 30

  APPENDIX B
      History of Federal and NASA Requirements ________________ 31

  APPENDIX C
      Management Comments ______________________________ 34

  APPENDIX D
      Report Distribution ___________________________________ 37




REPORT NO. IG-12-020
AUGUST 9, 2012




                                                                                  INTRODUCTION


Background

  For the past several years, the Government Accountability Office (GAO) and Congress
  have identified real property management as a high-risk area in agencies across the
  Federal Government. NASA is no exception. The Agency’s real property inventory
  consists of more than 100,000 acres, including more than 44 million square feet within
  approximately 5,000 buildings and other structures. Over 80 percent of these facilities
  are 40 or more years old, and NASA faces a backlog of deferred maintenance totaling
  $2.5 billion. 10 Moreover, the NASA Authorization Act of 2010 called for a reduction in
  NASA’s real property to fit current and future missions and expected funding levels.
  Against this backdrop, NASA is undergoing considerable changes in mission focus and
  operating in a budget-constrained environment. Given these challenges, NASA’s real
  property managers must balance reducing the Agency’s real property footprint with
  ensuring that NASA prudently retains and maintains facilities that are currently
  underutilized but may later be needed to support future missions.

  This balancing act is not a new challenge for NASA or the other Federal agencies. Since
  1949, agencies have been required to identify and promptly report excess property to the
  Administrator of General Services. 11 More recently, the Federal Real Property Council
  in 2004 and President Obama in 2010 issued guidance to Federal agencies regarding
  disposal of unneeded real property. Particular to NASA, Congress has noted that the
  Agency needs to re-scope and, as appropriate, downsize its physical footprint and
  directed it to develop a strategy to evolve toward the most efficient retention, sizing, and
  distribution of facilities, laboratories, test capabilities, and other infrastructure consistent
  with its mission. 12

  Real Property Agreements. In June 2010, NASA updated its policy to include the
  Agency’s first overall guidance for developing and managing real property agreements.
  This revised guidance requires that, with limited exceptions, only property that has a
  current or future mission-related use be made available for lease to third parties.

  NASA has several options if it identifies any of its real property as underutilized:
  retaining the property in its present state, demolition, mothballing, declaring the property
  “excess” to NASA’s needs and transferring it to the General Services Administration


  10
       NASA defines deferred maintenance as the essential but unfunded work necessary to bring its Centers up
       to required standards.
  11
       40 U.S.C. § 524.
  12
       Public Law 111-267, “National Aeronautics and Space Administration Authorization Act of 2010.”



REPORT NO. IG-12-020                                                                                            1
                                                                                     INTRODUCTION



    (GSA) for disposition, or making the property available for lease. 13 In this audit, we
    focused on NASA’s leasing program, including the different types of real property
    agreements NASA uses. For purposes of this report, we are using the term “lease” to
    refer to any type of real property agreement, (also referred to as an “out-grant” in NASA
    Procedural Requirements (NPR) 8800.15B “NASA Real Property Management,” June
    21, 2010), including easements, concessionaire agreements, nonreimbursable agreements,
    reimbursable agreements, or Enhanced Use Leases (EUL), that allows others to use
    NASA real property.

           •   Easements. NASA grants an entity a temporary or permanent right to use real
               property for a specific purpose. For example, NASA granted an easement to the
               Southeast Louisiana Flood Protection Authority-East for a flood protection levee
               at Michoud Assembly Facility.

           •   Concessionaire Agreements. A private business, such as a gift shop or food
               service vendor, operating at a NASA Center.

           •   Nonreimbursable Agreements. NASA and one or more agreement partners are
               involved in a mutually beneficial activity that furthers the Agency’s mission with
               each party bearing its own costs and no exchange of funds between the parties.
               For example, NASA has a nonreimbursable agreement with the Ames Child Care
               Center.

           •   Reimbursable Agreements. NASA makes land or facilities available to a third
               party and the third party pays NASA for the right to use the property. Under a
               reimbursable agreement with another Federal agency, NASA receives payment to
               cover its costs. For example, NASA has multiple agreements with the Navy for
               buildings and land at Stennis Space Center (Stennis) in which the Navy
               reimburses the Center for costs incurred. Leases to non-Federal entities should be
               set at market rate and any revenues in excess of cost that NASA receives should
               be remitted to the U.S. Treasury, unless the agreement is an enhanced use lease as
               discussed below.

           •   Enhanced Use Leases. Agreements that allow NASA to retain proceeds in excess
               of its costs.

    As of September 30, 2011, NASA had 430 active real property agreements. The scope of
    these agreements varied from use of a single office in a larger facility at Stennis to a lease
    for more than 75 acres of land at Ames Research Center (Ames). For our review, we
    included one additional reimbursable agreement at Kennedy Space Center (Kennedy) that
    was created on October 6, 2011, 6 days outside our audit sample timeframe, because of
    its high visibility.


    13
         NPR 8800.15B, “Real Estate Management Program,” June 2010.



2                                                                            REPORT NO. IG-12-020
INTRODUCTION



  The following table shows the 431 agreements by type and location.


                                                 Type of Agreements
        Center/  Enhanced                   Non-
       Component Use Lease Reimbursable Reimbursable Concessionaire                               Easement     Total
       Ames                52              20                 4                     —                  27      103
       Glenn               —                3                 3                      1                 3        10
       - PBS               —               21                 1                     —                  17       39
       Goddard             —                2                 —                     —                  2        4
       - Wallops           —               12                 4                     —                  13       29
       JPL                 —               —                  —                     —                  5        5
       Johnson             —                2                 3                     —                  56       61
       - White Sands       —               —                  —                     —                  2        2
       Kennedy             14               6                 7                      1                 7        35
       Langley             —                1                 2                     —                  3        6
       Marshall            —                4                 —                      6                 —        10
       - Michoud           —               14                 4                      1                 4        23
       Stennis             —               35                 5                     10                 54      104
        Total              66              120                33                    19                193      431
       Ames:            Ames Research Center                  Johnson:          Johnson Space Center
       Glenn:           Glenn Research Center                  - White Sands:   White Sands Test Facility
        - PBS:          Plum Brook Station                    Kennedy:          Kennedy Space Center
       Goddard:         Goddard Space Flight Center           Langley:          Langley Research Center
        - Wallops:      Wallops Flight Facility               Marshall:         Marshall Space Flight Center
       JPL:             Jet Propulsion Laboratory              - Michoud:       Michoud Assembly Facility
                                                              Stennis:          Stennis Space Center
       Source: Office of Inspector General (OIG) analysis of active real property agreements received from
       Centers.

  Evolution of NASA Enhanced Use Leases. In the Consolidated Appropriations
  Resolution of 2003, NASA received authority to establish EUL demonstration projects at
  two of its Centers. NASA selected Ames and Kennedy to exercise this authority. Under
  the law, NASA could accept cash or in-kind consideration in the form of maintenance,
  construction, modification, or improvement of facilities or the provision of services,
  including launch services and payload processing services. 14 For example, NASA has an
  EUL agreement with Airship Ventures for the use of 24,000 square feet of space in
  Hangar 2 at Ames’ Moffett Field to store a rigid airship. 15 In return, the base rent and


  14
       Public Law 108-7, “Consolidated Appropriations Resolution, 2003,” February 20, 2003.
  15
       Airship Ventures is a privately held company that conducts sightseeing tours by airship.



REPORT NO. IG-12-020                                                                                                 3
                                                                                                   INTRODUCTION



    reimbursement of costs for institutional support services from this agreement generated
    over $98,000 in fiscal year (FY) 2011.

    In 2007, GAO reported that NASA did not have adequate controls in place to report
    in-kind consideration received from its EULs. 16 In response, in July 2007 NASA issued
    an interim Agency-wide facilities policy for EULs, which was finalized in December
    2008 as the NASA Desk Guide for Enhanced Use Leasing of Real Property (the EUL
    Desk Guide). Under the policy, Centers with EUL authority are responsible for
    developing leases that support NASA missions in space exploration, scientific discovery,
    and aeronautics research. The policy states that “each lease will likely be unique in its
    aspects but all should support the NASA mission.” 17

    In 2008, Public Law 110-161 extended NASA’s EUL authority to all Centers but limited
    the Agency to accepting cash rather than in-kind consideration for any new leases.
    NASA subsequently placed a moratorium on EULs while it developed further guidance. 18
    NASA revised its EUL Desk Guide in February 2010 and lifted the moratorium on EULs
    in March 2010.

    In June 2010, NASA published updated guidance, NPR 8800.15B, “Real Estate
    Management Program,” which directs the Centers to submit all EULs, regardless of
    scope, duration, or amount of revenue, to the Director, Facilities Engineering and Real
    Property Division, for review and approval, rescinding authority previously granted to
    Centers to enter into some EULs without prior review by Headquarters. 19

    In November 2011, Public Law 112-55 restored NASA’s authority to accept in-kind
    consideration but only for leases related to the development of renewable energy
    production facilities. 20


Objectives

    Given the Agency’s real property challenges and the potential for leasing to help address
    aspects of those challenges, we examined NASA’s leasing program and reviewed leasing
    operations at selected NASA Centers and component facilities: Ames; Glenn Research
    Center (Glenn) and its Plum Brook Station; Kennedy; Michoud Assembly Facility

    16
         GAO Report, “NASA: Enhanced Use Leasing Program Needs Additional Controls” (GAO-07-306R,
         March 1, 2007).
    17
         EUL financial policy was included in NASA Procedural Requirements (NPR) 9090.1, “Reimbursable
         Agreements,” finalized in September 2008.
    18
         NASA Associate Administrator Memorandum to all Center Directors, “Enhanced Use Leasing
         Agreements,” February 17, 2009.
    19
         The Facilities Engineering and Real Property Division is now referred to as the Technical Capabilities
         and Real Property Management Division.
    20
         Public Law 112-55, “Consolidated and Further Continuing Appropriations Act, 2012,” November 18,
         2011.



4                                                                                         REPORT NO. IG-12-020
INTRODUCTION



  (Michoud), a component of Marshall Space Flight Center; and Stennis. Specifically, we
  assessed whether NASA (1) effectively identified space available for lease to other
  entities, (2) effectively marketed its available space to potential Federal and non-Federal
  tenants, and (3) had effective internal controls to ensure that agreements provide the best
  value to the Government and are fair to potential tenants and to account for in-kind
  consideration received from EULs. See Appendix A for details of the audit’s scope and
  methodology, our review of internal controls, and a list of prior coverage.




REPORT NO. IG-12-020                                                                            5
                                                                                                        RESULTS




                             NASA GUIDANCE FOR IDENTIFYING PROPERTY
                                 FOR LEASE IS UNCLEAR AND THE AGENCY
                                 LACKS A COMPREHENSIVE INVENTORY OF
                                      PROPERTY AVAILABLE FOR LEASING

               Although NASA has made improvements to its leasing guidance, the Agency still
               faces significant challenges in identifying real property that is available for leasing. 21
               Specifically, we found that the Centers have greater incentives to retain and lease
               underutilized property than to declare it excess to Agency needs so that it can be
               removed from NASA’s inventory. In addition, NASA’s leasing guidance does not
               make clear the criteria the Centers should use for determining if underutilized
               property has a current or future mission use and is therefore suitable for leasing.
               Accordingly, NASA may be leasing property that is more appropriate for excessing.
               We also found that NASA does not have a complete inventory of the space it has
               available to lease, making it more difficult for the Agency to maximize potential
               leasing opportunities and perform effective oversight of its leasing operations.


Challenges to Identifying Real Property Suitable for Leasing

    The decision whether to lease or excess underutilized real property represents a difficult
    balancing act for NASA. On one hand, leasing could generate revenue to offset facilities
    operations and maintenance costs and potentially reduce some of the Agency’s deferred
    maintenance liability. On the other hand, retaining and leasing property that has no
    identified mission use hinders the Agency’s efforts to reduce its real property footprint
    and diverts focus and resources from NASA’s primary space, aeronautics, and science
    missions to property development and management.

    According to NASA policy, the Agency’s overall utilization goal is to put its facilities to
    their highest and best uses and to ensure that its inventory of facilities remains consistent
    with its program and institutional priorities. 22 In sum, NASA should operate the
    minimum number of facilities and infrastructure required to conduct Agency programs
    and meet its varied responsibilities.

    NASA Has Few Incentives to Identify Property as Unneeded. Centers may have valid
    reasons for retaining underutilized real property, such as a potential future mission use,
    the need to maintain a buffer area surrounding test and launch facilities, historical
    preservation, or the location of the property within the Center’s established boundary.
    21
         In February 2010, NASA revised its 2008 EUL Desk Guide, and in June 2010 NASA issued NPR
         8800.15B, “Real Estate Management Program,” which included NASA’s first overall guidance for
         developing and managing real property agreements.
    22
         NPR 8800.15B.



6                                                                                    REPORT NO. IG-12-020
RESULTS



  However, according to Agency and Center officials, few incentives exist for NASA to
  identify underutilized property as unnecessary to its mission needs, a prerequisite to
  removing the property from the Agency’s jurisdiction and relieving NASA of the
  associated maintenance costs. For example, demolition can have significant up-front
  costs and there may be local and political opposition to disposing of facilities. Similarly,
  if NASA declares property excess and transfers it to GSA, any proceeds from a
  subsequent sale go to the general Treasury rather than NASA. In addition, it may be
  difficult for NASA to predict future mission needs and therefore give up technical or
  highly specialized assets that would be extremely expensive to replicate. For all of these
  reasons, leasing may be a more attractive option to NASA managers than disposing of the
  property.

  The Agency’s efforts to dispose of Hangar One – an iconic landmark built in the 1930s to
  house naval airships that is located at Ames’ Moffett Field – illustrate several of these
  challenges. In April 2012, the NASA Administrator notified a member of Congress that
  because NASA no longer needed Hangar One and other property at Moffett Field, it was
  working with GSA to transfer the property for disposition. 23 At the time, the massive
  hangar was being “de-skinned” to remove siding that was leeching toxic chemicals. Prior
  to the Administrator’s decision to transfer the hangar to GSA, a private company, H211,
  had proposed to evaluate the possibility of re-siding the hangar in return for rights to
  lease space in the hangar to house its private aircraft. Although, as stated in the
  Administrator’s April 2012 letter to a member of Congress, because NASA had no
  mission use for Hangar One or the other Moffett Field property it would not be consistent
  with Federal law for the Agency to lease the property to H211. 24 The Administrator’s
  action nevertheless sparked significant opposition from members of Congress, local
  residents, and the media.

  Unclear Guidance for Determining Whether Underutilized Property Is Suitable for
  Lease. Although NASA improved its leasing guidance, we found that the Agency still
  needs to clarify the criteria the Centers should use for determining whether underutilized
  property is needed for a current or future mission and therefore suitable for leasing. Prior
  to 2010, NASA guidance did not specifically require a link to a NASA mission before
  underutilized property could be considered for leasing. In an effort to ensure Centers do
  not lease underutilized property that has no mission connection, NASA revised its leasing
  policy in June 2010 to mirror Federal guidance that directs agencies to reduce their
  unneeded property and overall footprint. Specifically, the policy states that, with limited
  exceptions, only real property that has a current or future mission use should be
  considered for leasing. 25 Absent an identified current or future use, Center Directors
  23
       We reported on the re-siding project in “NASA’s Hangar One Re-Siding Project” (IG-11-020, June 22,
       2011). We questioned whether NASA spending $32.8 million to re-side the hangar was the best use of
       the Agency’s limited funding given that the Agency had no identified mission need for the building and
       had other higher priority and mission-critical renovation projects.
  24
       40 U.S.C. § 524.
  25
       NPR 8800.15B, Excess property, as defined in 40 U.S.C. 472(e), is property under the control of a
       Federal agency that is not required for its needs and the discharge of its responsibilities as determined by
       the head of the agency.


REPORT NO. IG-12-020                                                                                                  7
                                                                                                           RESULTS



    must provide a justification for retaining the property and request approval from NASA
    Headquarters to do so. 26

    Despite these improvements, the revised policy does not adequately explain the criteria
    Centers should use to determine whether property has a current or future mission use.
    For example, the policy does not direct the Centers to request formal input from Mission
    Directorates regarding their real property needs and future plans or suggest consideration
    of such factors as the cost of rebuilding unique assets.

    The difficult choices NASA faces in determining whether property is suitable for leasing
    are demonstrated by several current leasing agreements at Ames and Plum Brook Station
    that were entered into prior to the 2010 change in NASA policy. In 2008, Ames entered
    into two EUL agreements:

           •   The first with Planetary Ventures for 42 acres of undeveloped land for a
               maximum 90-year term to develop business and research-related facilities on the
               property. 27 NASA is receiving both cash and in-kind consideration in the form of
               infrastructure improvements under this agreement.

           •   The second with University Associates for 77 acres of land for a maximum
               90-year term to develop business, education, research, and housing facilities on
               the property. 28 Although the agreement calls for NASA to receive both cash and
               in-kind consideration for infrastructure improvements, as of February 2012
               University Associates had not begun the planned improvements.

    Figure 1 shows the location of the property covered by these agreements.




    26
         Approvals are granted by the Director of the Technical Capabilities and Real Property Management
         Division.
    27
         Planetary Ventures is a Delaware-incorporated limited liability company owned by Google, Incorporated.
    28
         University Associates is a nonprofit Silicon Valley limited liability company formed by the University of
         California, Santa Cruz, and Foothill-De Anza Community College District to provide integrated
         academic and research programs. Several NASA buildings on this parcel are currently slated to be
         demolished by University Associates.



8                                                                                         REPORT NO. IG-12-020
RESULTS



               Figure 1. Ames Land Involved in Two Lease Agreements

                                                     Approximate
                                                     location of
                                                     Planetary Ventures
                                                     lease agreement.


                                                             Approximate
                                                             location of
                                                             University
                                                             Associates lease
                                                             agreement.




               Source: Map from Ames Research Center; captions added
               by the OIG.


  Part of the Ames campus has been designated as the Shenandoah Plaza Historic District
  and NASA has an obligation under Federal law to preserve this area. Ames has
  developed a research park in portions of the Center including the Historic District, which
  has been recognized for its preservation efforts. However, the parcels of land Ames
  leased to Planetary Ventures and University Associates are outside the Historic District
  and Ames did not identify a mission use for the parcels other than enabling collaboration
  with external partners. Furthermore, the agreements are not contingent on any formal
  collaboration between the lessees and NASA.

  Similarly, in January 2009 and May 2010 Glenn leased two parcels of land totaling
  approximately 900 acres outside the fence line at Plum Brook Station to private entities
  for agricultural use. According to Glenn’s 20-year Facilities Master Plan, NASA hopes
  to someday develop this land into a visitors’ center and technology park.




REPORT NO. IG-12-020                                                                           9
                                                                                              RESULTS



     Plum Brook Station is shown in Figure 2 and the leased land is marked as “Agricultural
     Buffer Area.” Although Glenn officials identified the land as “Buffer Area,” they could
     not provide documentation to support safety-based or other reasons why such a buffer
     zone was required.

          Figure 2. Plum Brook Station Land Involved in Glenn’s Lease Agreements




                Approximate locations of
                agricultural lease agreements.


           Source: Glenn Research Center’s 20-year master plan; captions added by OIG.


     As noted above, all of these leases were entered into prior to NASA’s 2010 guidance
     requiring a mission-related use for property considered for leasing; consequently, we are
     not suggesting that the Centers acted inappropriately by entering into these agreements.
     However, looking forward NASA may miss opportunities to reduce its real property
     footprint if it leases rather than excesses properties like these Ames and Plum Brook
     Station parcels.

     In sum, we found that NASA policy is unclear regarding what criteria the Centers should
     use to evaluate whether to retain and lease underutilized Agency property rather than
     dispose of it. Without guidance that more clearly articulates what constitutes a NASA
     mission, the Agency may be missing significant opportunities to reduce its real property
     footprint and decrease associated operations and maintenance costs.




10                                                                                REPORT NO. IG-12-020
RESULTS



Incomplete Inventory of Space Available to Lease

  NASA’s lack of a complete inventory of space available to lease makes it more difficult
  for the Agency to manage its leasing efforts effectively, to advertise available space to
  potential tenants, and to match potential tenants with the space that best fits their needs.

  Although the Centers are required to identify underutilized real property suitable for
  lease, none of the five Centers we visited had compiled complete inventories of available
  land and buildings. Ames managers had a list of buildings and land in the NASA
  Research Park available for lease, but it did not include any buildings on the main Ames
  campus. Similarly, Kennedy’s inventory included facilities within its launch complexes
  but no land or buildings located on other parts of the Center, and Stennis had a complete
  inventory of buildings but had not identified underutilized land.

  Managers at Glenn and Michoud could not provide us with a formal inventory of
  available properties. According to Glenn personnel, the Center had very little
  underutilized space at its Cleveland campus. However, we estimated that Glenn had over
  500 acres of underutilized land within the core of its Plum Brook Station facility.
  According to Michoud personnel, approximately 40–60 percent of their facilities were
  underutilized and therefore potentially available for lease but because of uncertainties
  about future requirements for NASA programs they had not identified the precise areas
  that could be leased. After our visit to Michoud, officials told us they have received more
  definitive information about NASA’s needs and implemented a space management
  tracking system that identifies underutilized space suitable for leasing.

  We acknowledge that identifying potentially leasable space is challenging given the
  Agency’s changing and uncertain mission requirements and the current lack of guidance
  regarding how to evaluate current or future mission needs. However, identifying and
  maintaining inventories of real property available for lease is essential to effective
  marketing of potential leasing opportunities. Moreover, according to NASA policy the
  identification of underutilized real property assets should be part of a continuous process
  so that as future mission requirements become more firm Centers can efficiently and
  effectively identify leasable property. 29




  29
       NPR 8800.15B.



REPORT NO. IG-12-020                                                                             11
                                                                                           RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

To improve management of NASA’s real property leasing program, we made the following
recommendations to the Associate Administrator for Mission Support:

Recommendation 1. Clarify the criteria Centers should use to determine whether
underutilized property has a current or future mission-related use and provide training to
Center personnel on the revised criteria.

     Management’s Response. The Associate Administrator concurred with our
     recommendation, stating that while NASA’s current policy addresses this item the
     Agency agrees that the policy could be strengthened to ensure Centers have clearer
     statements of requirements relating to NASA’s leasing program. The Associate
     Administrator said management will draft and submit for official review the revised
     policy by the end of calendar year 2012.

     Evaluation of Management’s Response. Management’s comments are responsive;
     therefore, the recommendation is resolved and will be closed upon verification and
     completion of the proposed corrective actions.

Recommendation 2. Coordinate with the Centers to develop a process to maintain a
complete inventory of real property available for leasing.

     Management’s Response. The Associate Administrator concurred with our
     recommendation, stating that NASA will include the requirement for Centers to identify
     and maintain a complete inventory of real property leasing opportunities in its revised
     policy. In addition, NASA will establish within its Real Property Management System
     the capability for Centers to identify and maintain inventory of real property leasing
     opportunities and request that Centers submit a complete inventory of real property
     leasing opportunities by the end of calendar year 2012.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     verification and completion of the proposed corrective actions.




12                                                                        REPORT NO. IG-12-020
RESULTS




                                         CENTERS DID NOT ADEQUATELY MARKET
                                               THEIR PROPERTIES FOR LEASING

             The Centers we visited generally relied on informal “word-of-mouth” efforts to
             attract new leasing clients. However, NASA could take additional steps to market its
             leasing opportunities more effectively to Federal and non-Federal entities. For
             example, NASA had not coordinated with the GSA Office of Client Solutions to
             promote leasing opportunities to Federal entities and the Centers had not consistently
             published leasing opportunities to the widest-possible market to attract non-Federal
             tenants. Unless it expands its marketing efforts, NASA may not realize the full
             benefits of its leasing authority.


Marketing to Federal Entities

  We found that the NASA Centers we visited had not effectively marketed leasing
  opportunities to other Federal entities. In our judgment, giving preference to Federal
  agencies would promote the Federal Government’s goal of reducing the costs of
  maintaining facilities and consolidating its overall real property inventory. The President
  and the Office of Management and Budget (OMB) issued memorandums in 2010 and
  2011 directing Federal agencies to realign and consolidate Government-wide real
  property inventories. However, NASA has not provided guidance to its Centers about
  giving other Federal agencies preference for leasing opportunities. In addition, none of
  the five Centers we visited had formal marketing plans to identify or attract Federal
  tenants. Rather, the Centers primarily relied on informal word-of-mouth efforts to attract
  new tenants.

  Although word-of-mouth can be an effective tool to attract Federal tenants and at least at
  Stennis has appeared to work successfully (Stennis is known as a “Federal City”), NASA
  could improve its marketing efforts by coordinating with the GSA Office of Client
  Solutions to identify potential Federal tenants. 30 One of GSA’s missions is to provide
  facilities and workspace to Federal agencies, which look to GSA when they need to
  acquire space. By failing to coordinate with the GSA Office of Client Solutions, NASA
  may be missing opportunities to lease its underutilized property and other Federal
  agencies may be missing opportunities to use existing space in the larger Federal
  inventory. GSA staff we spoke with indicated a willingness to work with NASA to
  increase efficiency in back-filling vacant space, sharing existing space, and maximizing
  utilization of property between NASA and other agencies. Such coordination would


  30
       In the mid-1970s, Stennis adopted a multi-agency facility concept to better utilize its Federal land.
       Stennis now supports Federal tenants including the Navy, the National Oceanic and Atmospheric
       Administration, and the Environmental Protection Agency.



REPORT NO. IG-12-020                                                                                           13
                                                                                                        RESULTS



     align with plans for cutting waste by pursuing consolidation opportunities within and
     across Federal agencies as outlined in OMB’s Accountable Government Initiative. 31


Marketing to Non-Federal Entities

     We also found that Centers could improve their marketing efforts to non-Federal entities.
     According to NASA guidance, Centers should ensure that the intent to lease land or
     facilities to non-Federal entities is made available to the widest possible competitive
     market and the guidance suggests publishing leasing opportunities on public websites.
     However, the Centers we visited generally limited their marketing efforts to informal
     word-of-mouth outreach. For example, officials at several Centers we spoke with said
     they notify State development organizations, local media, attendees at tradeshows, and
     existing tenants about available space. Although this method has been successful in
     many cases and should be continued, additional opportunities exist to expand Centers’
     marketing efforts. For example, we found that the Centers did not consistently publish
     opportunities to nationwide markets or make use of Government-operated websites such
     as FedBizOpps. 32 Specifically, we found 10 instances at 4 Centers we visited where we
     believe it would have been prudent for Centers to market leasing opportunities on a
     national level in order to ensure the greatest level of competition.

     We determined that inadequate marketing stemmed from Center personnel’s lack of
     knowledge about available options for publishing leasing opportunities or reluctance to
     widely disseminate information about real property for fear that outside agencies might
     question why NASA was retaining the property. If potential tenants are not aware of
     opportunities to lease buildings or land at NASA Centers, the Agency may be missing
     opportunities to earn revenue that could be used to defray the costs of maintaining its
     aging infrastructure.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

To improve management of NASA’s real property leasing program and maximize its leasing
potential, we made the following recommendations to the Associate Administrator for
Mission Support:

Recommendation 3. Develop guidance that requires increased consideration of Federal
entities for leasing opportunities and coordination with GSA to identify potential Federal
tenants.

     31
          Memorandum for the Senior Executive Service from OMB, “The Accountable Government Initiative –
          an Update on Our Performance Management Agenda,” September 14, 2010.
     32
          FedBizOpps is a database of Federal Government contracting opportunities, including notices of
          proposed Government procurement actions, contract awards, and sales and leases of Government assets.



14                                                                                      REPORT NO. IG-12-020
RESULTS



   Management’s Response. The Associate Administrator partially concurred with our
   recommendation, noting that NASA’s current policy addresses this item but agreeing that
   the policy could be strengthened to ensure that Centers have clearer requirements relating
   to the Agency’s leasing program. The Associate Administrator stated that revisions to
   the existing policy will be drafted and submitted for official review by the end of
   calendar year 2012.

   Evaluation of Management’s Response. We consider the Associate Administrator’s
   proposed corrective actions responsive; therefore, the recommendation is resolved and
   will be closed upon verification and completion of the proposed corrective actions.

Recommendation 4. Develop guidance and training for personnel addressing the
requirements and best practices for marketing leasing opportunities to non-Federal entities.

   Management’s Response. The Associate Administrator partially concurred with our
   recommendation, noting that NASA’s current policy addresses this item but agreeing that
   the policy could be strengthened to ensure Centers have clearer statements of
   requirements relating to best practices for marketing leasing opportunities to non-federal
   entities. The Associate Administrator stated that changes to the Agency’s existing policy
   would be drafted and submitted for official review by the end of calendar year 2012. In
   addition, the Associate Administrator stated that further guidance relating to this subject
   has been provided in the Real Property Desk Guide and that this information was
   presented at training in June 2012.

   Evaluation of Management’s Response. We consider the Associate Administrator’s
   proposed corrective actions responsive; therefore, the recommendation is resolved and
   will be closed upon verification and completion of the proposed corrective actions.




REPORT NO. IG-12-020                                                                             15
                                                                                                            RESULTS




                              INTERNAL CONTROLS NEED STRENGTHENING TO
                                           ENSURE THE BEST VALUE TO THE
                                  GOVERNMENT AND FAIRNESS TO PARTNERS
                                         FOR REAL PROPERTY AGREEMENTS

                We found that NASA personnel at four of the five Centers we visited did not
                consistently use competition to ensure the best value to the Government for real
                property agreements with non-Federal entities. In addition, three Centers did not
                conduct a required market analysis or used the analysis inappropriately when
                developing pricing, and three Centers entered into lease agreements signed by
                unauthorized personnel. 33 The overriding factors contributing to these conditions
                were inadequate internal controls, particularly in training and guidance, and lack of
                documentation that led to confusion on how and when to use competition, when to
                use market analysis to develop pricing, and who has the proper signature authority.
                Without stronger internal controls, it will be difficult for NASA to ensure that the
                Agency is receiving the best possible benefits from its real property agreements and
                that the agreements are legally binding.

Internal Controls Need Strengthening to Ensure Competition Is
  Used Where Appropriate

     NASA did not have sufficient internal controls to ensure competition was used where
     appropriate for its real property agreements with non-Federal entities. 34 Although NASA
     is not required to follow the Federal Acquisition Regulation when leasing real property,
     according to NASA guidance competition should be used when appropriate to ensure the
     best value to the Government and fairness to all potential tenants. 35

     We examined 48 leasing agreements to determine whether they involved circumstances
     in which competition would have been appropriate. We based our determination on the
     desirability of the property, the duration of the lease, the amount of property involved,
     and whether more than one party had expressed interest. Based on these factors, we
     identified 17 agreements where we believe competition would have been appropriate.
     We found that the Centers took appropriate steps to ensure competition before entering
     into 6 of the 17 agreements, but either failed to do so or could not provide adequate
     evidence that they had done so for the other 11 agreements.

     33
          The best value is the most advantageous balance of revenue and compatibility with NASA’s mission
          achieved through competitive methods that provides the greatest overall benefit to the Government.
     34
          Competition is generally not required when making agreements with other Federal agencies. In fact, the
          Economy Act of 1932 directs agencies to price services to other agencies based on estimated or actual
          costs.
     35
          Competition may not be appropriate when a mutually beneficial relationship exists with an entity that
          directly relates to the real property or when a cost-based NASA contractor is searching for space.



16                                                                                         REPORT NO. IG-12-020
RESULTS



  The following leases at Ames and Glenn are examples of where competition was used
  appropriately.

         •   In 2005, Ames issued a Request for Proposal (RFP) to locate a tenant for its
             animal care facility. Although Ames received only one qualified proposal, the
             announcement of the opportunity was sent to eight entities and the resulting
             agreement appeared to provide NASA with the best benefit possible. Ames also
             maintains a public website where it publishes the availability of property within
             the Center-controlled NASA Research Park and Moffett Field. 36 Within our
             sample, we identified three other leasing agreements that resulted from use of this
             website.

         •   In November 2008, Glenn issued an RFP to lease 13 plots of land at Plum Brook
             Station for agricultural use. 37 Glenn appropriately applied a competitive process
             to leasing the properties by posting the RFP at local post offices and through
             outreach to area farm associations. Glenn received 37 proposals for the 13 plots
             of land. Glenn based the competition solely on price, and the agreements
             appeared to provide NASA with the best benefit possible.

  The following leases are examples where we believe the Centers should have taken
  additional steps to ensure the competitive process was transparent or where Centers failed
  to document that the tenant chosen represented the best value to the Government.

         •   As previously discussed, Ames entered into lease agreements with Planetary
             Ventures and University Associates in 2008 for 42 and 77 acres of land
             respectively. According to Ames personnel, they contacted local media, other
             research partners, and existing tenants to inform them of the availability of this
             land. These efforts attracted a number of parties interested in leasing the land.
             However, Ames did not publish the announcement or identify the specific
             location of the land to a national market. In addition, although Ames personnel
             told us they chose the current tenants because they met the Center’s overall goals
             for use of the land and provided the best value to NASA, they could not document
             their analyses or the methodology they used to narrow the competition to the
             current tenants. Given the relatively narrow search and lack of documented
             analyses, it is unclear whether these leases provided the best value to NASA.

         •   In July 2007, Ames entered into a 2-year EUL agreement, later extended to
             7 years, that provides H211 the use of over 69,000 square feet of space in a
             hangar at Moffett Field. Ames used a market estimate to determine the price of
             the lease agreement. In FY 2011, this agreement generated over $1.1 million in
             cash. This type of agreement – leasing space in an underutilized hangar to a

  36
       http://researchpark.arc.nasa.gov/ (accessed July 5, 2012).
  37
       This is the same property discussed on page 8. Note that our sample of 48 real property agreements
       included only 2 of the 13 agricultural agreements.



REPORT NO. IG-12-020                                                                                        17
                                                                                                           RESULTS



                private entity to maintain aircraft – is consistent with NASA guidance and
                applicable laws.

                According to Center personnel, H211 knew about the unused hangar space
                because of dealings the company had with Ames on other matters and unilaterally
                approached the Center to inquire about leasing the hangar to house the company’s
                passenger aircraft. According to Center officials, NASA and H211 have
                conducted 155 flights in support of scientific research-related missions using the
                company’s Alpha Jet or other aircraft.

                Although there was no specific requirement that Ames publish the availability of
                the hangar space to other parties before leasing it to H211, an official
                announcement of the hangar’s availability would have ensured a more transparent
                leasing process as well as fairness to other interested parties. 38

                                        Figure 3. H211 Alpha Jet Plane at
                                       Ames Research Center’s Moffett Field




                                Source: NASA photograph.

            •   In October 2011, Kennedy entered into an agreement with Space Florida for a
                maximum term of 21 years for use of the Orbiter Processing Facility 3 (OPF3),
                the Processing Control Center, and other peripheral buildings. 39 Kennedy
                managers conducted outreach and published the availability of the properties on
                the FedBizOpps webpage and received seven responses of interest in one or more
                of the properties. However, according to a Kennedy official, Kennedy and Space
                Florida have a long-standing partnership and the Center was in discussions with
                Space Florida to lease the OPF3 properties prior to the public notification. The


     38
          In May 2012, Senator Charles Grassley, Ranking Member of the Senate Committee on the Judiciary, sent
          a letter to the NASA Administrator requesting additional information on the Planetary Ventures and
          H211 partnerships with NASA, including their activities at Moffett Field.
     39
          Space Florida is an independent agent of the State of Florida created to foster the growth and
          development of a sustainable space industry in Florida.



18                                                                                          REPORT NO. IG-12-020
RESULTS



             official indicated that Space Florida was always the preferred tenant for these
             properties and the public notification was only to comply with NASA regulations.

             Other Kennedy officials said, that in making their selection, they determined that
             only Space Florida would be ready to lease the property in June 2011 and that
             timing was the reason the other parties were not considered. However, according
             to a Space Shuttle Transition and Retirement Program official we spoke with,
             NASA was not scheduled to vacate the majority of the facilities covered by the
             agreement until January 2012 and all the facilities until May 2012. Moreover, the
             lease with Space Florida was not signed until October 2011 and, as of January
             2012, NASA still had personnel in all of the primary facilities and was providing
             funding for the majority of the maintenance and utilities of these facilities.
             Therefore, even though Kennedy officials used schedule as their primary selection
             criteria, other parties may have been ready to lease the property by the time the
             property was available and were, therefore, excluded prematurely.

         •   In July 2010, Michoud entered into a real property agreement with Blade
             Dynamics for over 29,000 square feet of manufacturing and office space where
             Blade Dynamics plans to manufacture wind turbine blades. According to
             Michoud personnel, they contacted State development organizations, local media,
             and trade shows to identify possible tenants for unused space at Michoud.
             However, Michoud officials did not publicize the availability of this space to a
             national market.

  In these cases, we question the thoroughness and fairness of the solicitation process and
  ultimately could not determine if NASA was receiving the best value from these
  agreements. According to Center officials we interviewed, many of these issues resulted
  from inadequate guidance on when to use competition. Specifically, the current guidance
  does not explain when it is appropriate to use competition, how the competition should
  take place, or what information should be retained as part of the Center’s official records
  to document the solicitation and decision process. Without clear guidance, it will be
  difficult for the Centers to determine how and when competition should be used.
  Moreover, without documenting the Center’s decision process, it is difficult to determine
  whether the lease agreements resulted from an open process that was fair to all potential
  tenants and whether NASA is receiving the best value on these long-term agreements.


Inconsistent Adherence to Pricing Policy for Real Property
  Agreements

  Of the 51 agreements we assessed, we found 9 cases from three of the five Centers where
  the Centers did not price real property agreements in accordance with NASA policy. 40
  40
       For this section of the report, we added 3 agreements to our sample as a result of Glenn personnel
       identifying additional agreements that did not conform to pricing guidance but were outside the
       timeframe of our original sample.



REPORT NO. IG-12-020                                                                                        19
                                                                                                             RESULTS



     We determined that four of these agreements were priced at rates that were not fully
     beneficial to NASA.

     Pricing guidance is different for Federal and non-Federal tenants. Government policy
     requires Federal agencies to price goods or services provided to another Federal agency
     at the estimated or actual costs of those goods or services, a requirement also reflected in
     NASA guidance. 41 When leasing to non-Federal entities, NASA policy generally
     requires that the Centers conduct a market analysis to ensure the Agency does not
     inappropriately compete for potential tenants with owners of private facilities. 42

     Market Analysis for Non-Federal Tenants. We found five cases – one at Stennis and
     four at Michoud – where market analyses were not conducted before lease agreements
     with non-Federal tenants were signed. In one of these cases, we determined that the
     Agency undercharged the tenants, which gave the tenant an unfair cost advantage over its
     competitors and resulted in NASA unfairly competing with private industry by charging
     less than the prevailing market rates. In lieu of a market analysis, both Michoud and
     Stennis priced the real property agreements based on the Center’s costs.

            •   Michoud had four active agreements where managers did not conduct market
                analyses prior to entering into lease agreements with private parties. Michoud
                completed a market analysis for these properties in 2011 and determined that the
                rents the Center was charging were consistent with the market rates.

            •   Stennis appears to be pricing an agreement with Rolls Royce below the market
                rate for its buildings and charges no rent for the use of NASA land. Specifically,
                Stennis officials were charging Rolls Royce $2.14 per square foot annually for
                office space. 43 Stennis had not performed a market analysis to set the rent and the
                amount charged covered only its estimated costs. A market analysis, as required
                by NASA policy, would clarify the appropriate rate for future Stennis agreements.
                Moreover, in addition to the buildings that Rolls-Royce is leasing from Stennis,
                the company also constructed four additional buildings or structures for their use
                on Center-owned land. However, Rolls-Royce is not paying any additional rent
                for this land and we question the basis for and appropriateness of this
                arrangement.

     41
          The Economy Act of 1932 requires Federal agencies to price goods or services provided to another
          Federal agency at the estimated or actual cost for those goods or services. NPR 9090.1, “Reimbursable
          Agreements,” provides the same direction to NASA organizations.
     42
          NPR 9080.1G, “Review, Approval, and Imposition of User Charges.” OMB Circular A-25, “User
          Charges,” July 1993, also requires user charges to be based on market prices when the Government, not
          acting in its capacity as a sovereign, is leasing or selling goods or resources or is providing a service
          (e.g., leasing space in federally owned buildings).
     43
          A market analysis completed by officials at Michoud, approximately 40 miles from Stennis, determined
          that local office space in the Michoud region rents for between $8.50 and $13.50 per square foot. The
          rates at Michoud would be expected to be higher than at Stennis given Michoud’s proximity to New
          Orleans, but absent market analysis, it is unclear whether this alone accounts for the substantial
          difference in the two rates.



20                                                                                          REPORT NO. IG-12-020
RESULTS



  Pricing for Federal Tenants. In other cases, the Agency leased real property to Federal
  tenants at rates that were not consistently beneficial to NASA. Specifically, we found
  that Glenn managers incorrectly priced four agreements with Federal tenants by
  inappropriately using a market analysis as a basis to price these property agreements. 44
  As discussed above, NASA is required to use actual or estimated costs as the basis to
  determine the rent for Federal tenants. However, Glenn charged its Federal tenants
  almost $70,000 less than the estimated costs for operations and maintenance of the
  facilities. Glenn personnel said they plan to adjust the pricing of these leases when the
  current agreements expire in 2013.

  Center personnel at both Glenn and Stennis said it was unclear when they should use
  market analyses to establish lease costs. As a result of the different understandings of
  Center personnel and the resulting inconsistent adherence to policy, the Centers leased
  real property at rates that were not fully beneficial to NASA.


Real Property Agreements Were Improperly Signed

  Of the 48 real property agreements we reviewed at the Centers, we found 13 signed by
  individuals who lacked the authority to bind the Agency. 45 According to the Code of
  Federal Regulations (C.F.R.), Center Directors or their designees do not have the
  authority to sign agreements for terms longer than 5 years. 46 In addition, the C.F.R.
  stipulates that all agreements signed by Center Directors are required to contain a specific
  termination clause. Pursuant to the C.F.R., Center Directors may delegate their signature
  authority to two subordinates. Of these 13 agreements, 6 were for terms longer than
  5 years and 8 did not contain the required termination clause. 47 In addition, 5 were
  signed by personnel who had not received delegated authority from the Center Director.
  For example, the 30-year agreement signed in May 1998 by the Stennis Center Director
  with Boeing North American Inc. for use of the B-1 Test Stand did not contain the
  required termination clause. In addition, because the agreement was for more than
  5 years, the Center Director was not authorized to sign for the Agency.

  In 2010, NASA initiated a new process to route real property agreements through the
  Technical Capabilities and Real Property Management Division at NASA Headquarters.
  According to Center officials, the Directors may not have been fully aware of the
  limitations the C.F.R places on their signature authority.


  44
       In one of the four agreements with Federal partners, Glenn charged more than the Center’s estimated
       costs.
  45
       These 13 agreements included 3 at Kennedy, 5 at Marshall (for Michoud), and 5 at Stennis.
  46
       14 C.F.R. 1204.503, “Delegation of Authority to Grant Easements,” and 14 C.F.R. 1204.504,
       “Delegation of Authority to Grant Leaseholds, Permits, and Licenses in Real Property.”
  47
       The numbers add to more than 13 due to some leases fitting into multiple categories. For example, a
       lease may have been for longer than 5 years and also failed to contain the required termination clause.



REPORT NO. IG-12-020                                                                                             21
                                                                                          RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 5. The Associate Administrator for Mission Support should clarify
guidance to ensure the widest possible publication of leasing opportunities and competition
when appropriate.

     Management’s Response. The Associate Administrator partially concurred with our
     recommendation, noting that NASA’s current policy addresses this item but agreeing that
     the policy could be strengthened to articulate that leasing opportunities should be widely
     publicized. The Associate Administrator stated that changes to the Agency’s existing
     policy will be drafted and submitted for official review by the end of calendar year 2012.

     Evaluation of Management’s Response. We consider the Associate Administrator’s
     proposed corrective actions responsive; therefore, the recommendation is resolved and
     will be closed upon verification and completion of the proposed corrective actions.

Recommendation 6. The Associate Administrator for Mission Support should instruct
Center management of the limitations of their signature authority regarding real property
agreements.

     Management’s Response. The Associate Administrator partially concurred with our
     recommendation, noting that NASA’s current policy addresses this item but agreeing that
     the policy could be strengthened to clearly articulate Center management roles and
     responsibilities for lease agreements. The Associate Administrator stated that changes to
     the Agency’s existing policy will be drafted and submitted for official review by the end
     of calendar year 2012.

     Evaluation of Management’s Response. We consider the Associate Administrator’s
     proposed corrective actions responsive; therefore, the recommendation is resolved and
     will be closed upon verification and completion of the proposed corrective actions.

Recommendation 7. The Associate Administrator for Mission Support should review all
real property agreements to ensure they are consistent with applicable statutes and
regulations regarding proper signature authority and required contractual terms.

     Management’s Response. The Associate Administrator concurred with our
     recommendation, stating that NASA will review and revise its policy to ensure that
     appropriate guidance is provided to Centers relating to the applicable statutes and
     regulations regarding signature authority and require the Centers to review all existing
     agreements for compliance with Agency leasing requirements. Finally, the Technical
     Capabilities and Real Property Management Division will conduct reviews of existing
     Center leasing agreements during fiscal year 2013.




22                                                                          REPORT NO. IG-12-020
RESULTS



  Evaluation of Management’s Response. We consider the Associate Administrator’s
  proposed corrective actions responsive; therefore, the recommendation is resolved and
  will be closed upon verification and completion of the proposed corrective actions.




REPORT NO. IG-12-020                                                                      23
                                                                                                  RESULTS




                       NASA’S REPORTING OF IN-KIND CONSIDERATION
                          IS IMPROVING BUT IN-KIND BENEFITS WERE
                                       NOT CONSISTENTLY REALIZED

               NASA is improving its reporting of the in-kind consideration received from EULs in
               its financial records, and Centers have achieved some benefits through EUL
               agreements. However, of the eight in-kind EUL agreements we reviewed, NASA
               did not receive any benefit from one agreement and received limited benefits from
               three others. This occurred because NASA does not have adequate guidance for
               determining whether in-kind consideration provides the best value to NASA.


NASA’s Reporting of In-Kind Consideration Is Improving

     According to NASA guidance, in-kind consideration may consist of expenses associated
     with property repairs, upgrades, or capital improvements that improve or extend the
     useful life of Agency property or other services rendered by the lessee. In 2007, GAO
     reported that NASA did not have adequate controls in place to report in-kind
     consideration received from its EUL agreements. 48 In response, NASA issued guidance
     for both the financial and facilities management of real property agreements, which
     included specific procedures for EULs. Although this guidance was issued in 2008,
     Kennedy had not recorded the Center’s in-kind consideration as directed by the guidance.
     As a result of this audit, Kennedy’s personnel are in the process of identifying the value
     of the in-kind consideration and plan to record the consideration as directed by NASA
     guidance.


In-Kind Benefits Were Not Consistently Realized

     We found that NASA was not consistent in maximizing the potential of the in-kind
     benefits it accepted as part of EULs. Of the eight agreements we reviewed, we found two
     in which NASA received mission-related benefits; five in which NASA received
     improvements to the property but no direct mission-related benefits; and one in which
     NASA received no benefit.

     In-Kind Benefits Fully Realized. In two agreements, NASA received mission-related
     benefits in the form of in-kind consideration. In an agreement with Florida Power and
     Light Company, Kennedy provides undeveloped land and Florida Power and Light
     provides the Center with a one-megawatt solar power facility that meets about 1 percent
     of the Center’s electric power demand. This agreement benefits Kennedy by providing

     48
          GAO Report, “NASA Enhanced Use Lease Program Needs Additional Controls” (GAO-07-306R,
          March 1, 2007).



24                                                                              REPORT NO. IG-12-020
RESULTS



  about half of the energy needed to meet the Center’s goal for the use of renewable
  energy. In a separate agreement with Lifesource Biomedical, Ames provides an animal
  care facility and, in lieu of some cash payments, Lifesource Biomedical provides care for
  animals involved in NASA research programs.

  In-Kind Benefits Not Clearly Mission Related. We also identified five agreements in
  which NASA received improvements to the property but no direct mission-related
  benefits. In three cases, the Centers entered into agreements pursuant to which the
  tenants would develop land for business or educational use. The in-kind consideration
  was in the form of infrastructure improvements, such as installing roads and utilities.49
  Although NASA may accept such infrastructure improvements pursuant to its EUL
  authority, in our judgment they provide little benefit to the Agency when the terms of the
  lease agreements at issue are as long as 90 years. With agreements of such length, most
  of the improvements appear to benefit the current tenants rather than NASA.
  Accordingly, we question the value of such arrangements to the Agency.

  In the other two agreements, both located at Ames, Bloom Energy renovated the building
  it occupies and H211 removed a skywalk in the hangar it leases at Moffett Field. NASA
  accepted the cost of these renovations as in-kind payment. 50 Although these in-kind
  benefits were not clearly mission related, these are short-term agreements and the
  improvements could benefit NASA if the properties revert to the Agency.

  In-Kind Benefits Not Realized. For one real property agreement with General
  Dynamics at Ames, NASA did not receive any benefit. In February 2008, Ames entered
  into an agreement under which General Dynamics would place two satellite antennas on
  Ames property (see Figure 4). As in-kind consideration, Ames accepted the part-time use
  of the satellite antennas, which Ames personnel planned to use in connection with several
  planned small satellite missions. However, Headquarters did not grant approval to use
  the antennas and therefore Ames has not realized any benefit from this agreement. Ames
  officials said they do not expect to renew the agreement when it expires in December
  2012.




  49
       In one agreement with Planetary Ventures, the tenant agreed to relocate a cooling tower and construct a
       recreational field, improvements that once completed would provide an immediate benefit to the Agency.
  50
       Bloom Energy is a private company that develops and produces power generation systems that utilize a
       new fuel cell technology.



REPORT NO. IG-12-020                                                                                             25
                                                                                        RESULTS




     Figure 4. Antennas at Ames Research Center




      Source: OIG photograph.


     In-kind benefits were not consistently realized because NASA did not have adequate
     guidance as to what services or goods should be accepted as in-kind consideration.
     Without adequate guidance on determining whether proposed in-kind consideration is the
     best value to the Government, NASA may not fully realize the benefits of its authority to
     accept in-kind consideration associated with renewable energy production.


Recommendation, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 8. We recommended that the Associate Administrator for Mission
Support develop guidance for determining whether in-kind consideration provides the best
value to the Government.

     Management’s Response. The Associate Administrator partially concurred with our
     recommendation, noting that NASA’s current policy addresses this item but agreeing that
     the policy could be strengthened to ensure the Centers have clearer requirements related
     to the Agency’s leasing program. The Associate Administrator further noted that
     although at the start of the audit NASA did not have the authority to accept in-kind
     considerations, under the 2012 Consolidated and Further Continuing Appropriations Act
     the Agency may accept in-kind consideration for leases entered into for the purpose of
     developing renewable energy production facilities. The Associate Administrator stated
     that changes to Agency policy will be drafted and submitted for official review by the
     end of calendar year 2012.

     Evaluation of Management’s Response. We consider the Associate Administrator’s
     proposed corrective actions responsive; therefore, the recommendation is resolved and
     will be closed upon verification and completion of the proposed corrective actions.




26                                                                        REPORT NO. IG-12-020
APPENDIXES




                                                                          APPENDIX A


Scope and Methodology

  We performed this audit from July 2011 through July 2012 in accordance with generally
  accepted government auditing standards. Those standards require that we plan and
  perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
  for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We reviewed real property agreement requirements contained in the following NASA
  policy, as well as Center-specific policy that corresponded with the NASA guidance:

      •   NASA Policy Directive (NPD) 1050.1I, “Authority to Enter Into Space Act
          Agreements,” December 23, 2008, and NASA Advisory Implementing Instruction
          (NAII) 1050-1B, “Space Act Agreements Guide,” June 10, 2011.

      •   NPD 8800.14D, “Policy for Real Estate Management (Revalidated, October 14,
          2009),” July 15, 2004.

      •   NPR 8800.15B, “Real Estate Management Program,” June 21, 2010, and the
          previous version, NPR 8800.15A, “Real Estate Management Program
          Implementation Manual,” June 1998.

      •   NPR 9090.1, “Reimbursable Agreements,” September 30, 2008.

      •   NPD 9080.1G, “Review, Approval, and Imposition of User Charges (Revalidated
          w/admin changes 8/28/09),” October 14, 2004.

      •   “NASA Desk Guide for Enhanced Use Leasing of Real Property,” Revised
          February 2010, with earlier versions dated July 11, 2007, and December 29, 2008.

  We reviewed real property agreement requirements contained in several Federal laws and
  policy documents as they related to NASA, as described in Appendix B.

  To determine whether NASA effectively identified space available for lease to other
  entities, we interviewed real property and facility managers at NASA Headquarters and
  the following NASA Centers and component facilities: Ames Research Center, Glenn
  Research Center and its Plum Brook Station, Kennedy Space Center, Michoud Assembly
  Facility (a component of Marshall Space Flight Center), and Stennis Space Center. We
  also toured each of the NASA Centers identified above. Additionally, we coordinated



REPORT NO. IG-12-020                                                                           27
                                                                                        APPENDIX A



     with officials at GSA to determine GSA practices for leasing real property to other
     Federal agencies.

     To determine whether NASA appropriately used competition to ensure best value to the
     Government and fairness to potential tenants and whether NASA effectively marketed its
     available space to potential Federal and non-Federal tenants, we conducted in-depth
     reviews with real property managers, legal counsel, and other relevant Center officials at
     each of the Centers we visited. We performed a preliminary review of 430 agreements
     the Centers provided covering FY 2010 through FY 2011 (October 1, 2009, through
     September 30, 2011). We added one additional agreement that was created 6 days after
     the sample range (October 6, 2011) because of its high visibility prior to our visit to that
     Center (Kennedy). Our review analyzed all the leases for compliance with requirements
     in seven categories: (1) Benefit to NASA/Link to Mission, (2) Business Case,
     (3) Documented Future Use or Waiver, (4) Notice of Availability or Waiver, (5) Use of
     Market Prices for Private Entities, (6) Priority of Use (Termination) Clause or Waiver,
     and (7) Signed by Authorized NASA Official.

     Of the 431 agreements in our preliminary review, 193 were easements, which we
     determined presented less risk to the Agency than the other agreement types, so we
     focused on agreements such as reimbursable Space Act Agreements, leases, and EULs.

     We judgmentally chose the five Centers or subordinate facilities based on the number of
     real property agreements at these Centers, selecting a composite of some Centers with
     many agreements and others with less real property agreement experience. From these
     Centers, we chose 48 agreements for further review based on compliance issues with the
     regulatory requirements above and considering risk in leasing to private versus public
     entities, scope of the agreement, range of old and new leases, and outliers with issues in
     reporting documentation. The real property agreements selected for further review
     represented an average of 17 percent of the real property agreements at the selected
     Centers. During our site visits, we reviewed compliance with the seven regulatory
     requirements identified above and determined the circumstances related to compliance
     issues. We also reviewed the Centers’ revenues and costs associated with the selected
     agreements. For the pricing section of the report, we added three agreements to our
     sample as a result of Glenn personnel taking proactive action to identify agreements that
     did not conform to pricing guidance.

     To determine whether NASA had effective internal controls to account for in-kind
     consideration for EULs, we reviewed NASA policies identified in Appendix B as they
     referred to procedures for managing in-kind consideration. We also conducted interviews
     with real property managers and personnel in the Office of the Chief Financial Officer at
     the two Centers that have used EULs since the pilot authority was first granted in 2003:
     Ames Research Center and Kennedy Space Center. At the site visits for these Centers,
     we also reviewed EUL agreements selected from our sample with the real property and
     financial managers and legal counsel.




28                                                                           REPORT NO. IG-12-020
APPENDIX A



  Use of Computer-Processed Data. We used the SAP Business Warehouse (BW) for its
  Real Property Management System (RPMS) and financial data, and the Space Act
  Agreement Maker (SAAM) system for data that was significant to the assignment
  objectives. We did not assess the reliability of financial data in SAP BW, but we did not
  rely on the data solely to make our conclusions; we also obtained supporting
  documentary and testimonial evidence from the Centers as appropriate.

  We determined that the RPMS was not sufficiently reliable because an OIG report
  completed in August 2011 had already identified weaknesses in NASA’s methods used to
  capture information on its real property assets, which resulted in significant data
  reliability issues in key fields in the RPMS, specifically in the three key elements of
  utilization, mission dependency, and condition. 51 These elements are primary factors
  driving NASA’s decisions on whether to maintain, repair, consolidate, lease, sell, or
  demolish existing assets. Therefore, we sought and obtained sufficient supporting
  documentary evidence from the actual agreements at each of the Centers. We did not
  assess the reliability of the SAAM system because we did not depend on its data to reach
  our conclusions, but we also obtained supporting documentary and testimonial evidence
  from the Centers.


Review of Internal Controls

  We performed a preliminary assessment of the internal controls associated with our audit,
  including identifying controls that should be in place according to regulation.
  Throughout the audit we reviewed controls associated with the audit objectives and
  identified that NASA did not have sufficient controls to ensure that property identified
  for potential leasing is not excess to NASA’s needs. Further, we found various internal
  control weaknesses, particularly in training and guidance, and lack of documentation that
  limit NASA’s ability to ensure that leases provide the best value to the Agency and
  fairness to its real property agreement partners. Headquarters and Center officials have
  indicated they are taking actions to address these weaknesses.




  51
       NASA OIG Report, “NASA Infrastructure and Facilities: Assessment of Data Used to Manage Real
       Property Assets” (IG-11-024, August 4, 2011).



REPORT NO. IG-12-020                                                                                  29
                                                                                       APPENDIX A



Prior Coverage

     During the last 5 years, the NASA OIG and GAO have issued 11 reports and testimonies
     of particular relevance to the subject of this report. Unrestricted reports can be accessed
     over the Internet at http://oig.nasa.gov/audits/reports/FY12 (NASA OIG) and
     http://www.gao.gov (GAO).

     NASA Office of Inspector General

     “NASA Infrastructure and Facilities: Assessment of Data Used to Manage Real Property
     Assets” (IG-11-024, August 4, 2011)

     “NASA’s Hangar One Re-Siding Project” (IG-11-020, June 22, 2011)

     “Final Memorandum on NASA’s Accounting for Real Property Leased to Other Entities”
     (IG-08-004, December 11, 2007)

     Government Accountability Office

     “Defense Infrastructure: The Enhanced Use Lease Program Requires Management
     Attention” (GAO-11-574, June 30, 2011)

     “Reimbursable Space Act Agreements: NASA Generally Adhering to Fair
     Reimbursement Controls, but Guidance on Waived Cost Justifications Needs
     Refinement” (GAO-11-553R, May 26, 2011)

     “Federal Real Property: Progress Made on Planning and Data, but Unneeded Owned and
     Leased Facilities Remain” (GAO-11-520T, April 6, 2011)

     “GAO’s 2011 High-Risk Series: An Update” (GAO-11-394T, February 17, 2011)

     “Federal Real Property: The Government Faces Challenges to Disposing of Unneeded
     Buildings” (GAO-11-370T, February 10, 2011)

     “Federal Real Property: Authorities and Actions Regarding Enhanced Use Leases and
     Sale of Unneeded Real Property” (GAO-09-283R, February 17, 2009)

     “NASA: Issues Surrounding the Transition from the Space Shuttle to the Next
     Generation of Human Space Flight Systems” (GAO-07-595T, March 28, 2007)

     “NASA: Enhanced Used Leasing Program Needs Additional Controls” (GAO-07-306R,
     March 1, 2007)




30                                                                          REPORT NO. IG-12-020
APPENDIX B




                                                HISTORY OF FEDERAL AND NASA
                                                               REQUIREMENTS

  The following table summarizes significant Federal and NASA requirements applicable
  to real property agreements.

             Title                  Date                             Significance
  31 U.S.C. 1535, “The          June 30, 1932    Provides guidance for establishing prices for Federal
  Economy Act of 1932”                           agencies to provide services or goods to another
                                                 Federal agency. Pricing should be based on
                                                 estimated or actual cost.
  40 U.S.C. 524, “Duties of     June 30, 1949    Requires agencies to identify and promptly report
  Executive Agencies,”                           excess property to the Administrator of General
                                                 Services.
  40 U.S.C. 586, “Charges       June 30, 1949    Provides that all revenues should be returned to
  for space and services”                        Treasury under Miscellaneous Receipts.
  31 U.S.C. 9701, “Fees and     Aug. 31, 1951    Provides guidance for establishing prices for
  Charges for Government                         services to non-Federal entities.
  Services”
  National Aeronautics and      July 29, 1958    Authorizes NASA “to enter into and perform such
  Space Act                                      contracts, leases, cooperative agreements, or other
                                                 transactions as may be necessary in the conduct of
                                                 its work and on such terms as it may deem
                                                 appropriate, with any agency or instrumentality of
                                                 the United States, or with any state, territory, or
                                                 possession, or with any political subdivision thereof,
                                                 or with any person, firm, association, corporation, or
                                                 educational institution.”
  14 C.F.R. 1204.504,           Aug. 1, 1986     Delegates authority in the Space Act for leasing real
  “Delegation of authority to                    property to the Assistant Administrator for Strategic
  grant leaseholds, permits,                     Infrastructure and Director, Technical Capabilities
  and licenses in real                           and Real Property Management Division. Also
  property.                                      grants NASA Center Directors the limited authority
                                                 to lease NASA property.
  OMB Circular A-25, “User July 8, 1993          Provides 31 U.S.C. 9701 implementation guidance
  Charges”                                       to agencies that convey special benefits to recipients
                                                 beyond those accruing to the general public.
  NPD 9080.1G, “Review,         Oct. 14, 2004    Current NASA guidance for pricing special benefits
  Approval, and Imposition                       as directed by OMB Circular A-25.
  of User Charges”
  Public Law 108-7, “Con-       Feb. 20, 2003    First authority for two NASA Centers (Ames and
  solidated Appropriations                       Kennedy were chosen) to enter into Enhanced Use
  Resolution, 2003”                              Leases. Also grants in-kind consideration as
                                                 possible payment.



REPORT NO. IG-12-020                                                                                  31
                                                                                               APPENDIX B




                Title                  Date                             Significance
     Executive Order 13327,        Feb. 4, 2004    Establishes the Federal Real Property Council.
     “Federal Real Property
     Asset Management”
     Federal Real Property         Dec. 22, 2004   Guidance issued that directs agencies to dispose of
     Council, “Guidance for                        real property that is not needed.
     Improved Asset
     Management”
     Public Law 110-161,           Enacted:        Expands the Enhanced Use Lease authority to all
     “Consolidated                 Dec. 26, 2007   NASA Centers. Removes the authority to take
     Appropriations Act, 2008”     Effective:      in-kind consideration as possible payment and
                                   Dec. 31, 2008   stipulates that the real property to be leased cannot
                                                   be excess.
     NPR 9090.1, “Reimburs-        September 30,   Current NASA guidance for the financial
     able Agreements”              2008            management of reimbursable agreements.
     NAII 1050-1, “Space Act       Aug. 15, 2006   First Desk Guide on NASA agreement practice and
     Agreements Guide”                             provide assistance to those involved in formation
                                                   and execution of Space Act Agreements.
     NPD 1050.1I, “Authority       Dec. 23, 2008   Current NASA guidance for development and
     to Enter into Space Act                       management of Space Act Agreements.
     Agreements”
     “NASA Desk Guide for          February 2010   Revised the 2008 Desk Guide.
     Enhanced Use Leasing of
     Real Property” (and the
     earlier versions dated July
     2007 and December 2008)
     Presidential Memorandum       June 10, 2010   Directed agencies to scrutinize and eliminate excess
     “Disposing of Unneeded                        real property.
     Federal Real Estate –
     Increasing Sales Proceeds,
     Cutting Operating Costs,
     and Improving Energy
     Efficiency”
     NPR 8800.15B, “Real           June 21, 2010   Revision of the first overall NASA guidance issued
     Estate Management                             for developing and managing real property
     Program”                                      agreements, NPR 8800.15A, “Real Estate
                                                   Management Program Implementation Manual,”
                                                   June 1998.
     Public Law 111-267,           Oct. 11, 2010   Authorizes NASA programs and directs NASA to
     “National Aeronautics and                     re-scope and, as appropriate, downsize its
     Space Administration                          institutional capabilities, including its infrastructure,
     Authorization Act of                          to fit current and future missions and expected
     2010”                                         funding levels.
     NAII 1050-1B, “Space Act      June 10, 2011   Revised NASA’s 2008 Space Act Agreements
     Agreements Guide”                             Guide.




32                                                                                REPORT NO. IG-12-020
APPENDIX B




             Title                Date                            Significance
  Presidential Memorandum,    Oct. 28, 2011   Guidance for agencies to encourage external
  “Accelerating Technology                    partners through real property agreements to locate
  Transfer and                                applied research and support activities near Federal
  Commercialization of                        laboratories and other Federal research facilities.
  Federal Research in
  Support of High-Growth
  Businesses”
  Public Law 112-55,          Nov. 18, 2011   NASA may accept in-kind consideration for leases
  “Consolidated and Further                   entered into for the purpose of developing
  Continuing Appropriations                   renewable energy production facilities.
  Act, 2012”
  Source: OIG compilation.




REPORT NO. IG-12-020                                                                                 33
                       APPENDIX C




     MANAGEMENT COMMENTS




34            REPORT NO. IG-12-020
APPENDIX C




REPORT NO. IG-12-020   35
              APPENDIX C




36   REPORT NO. IG-12-020
APPENDIX D




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief of Staff
  NASA Advisory Council’s Audit, Finance, and Analysis Committee
  Associate Administrator for Mission Support
     Assistant Administrator for the Office of Strategic Infrastructure
  Director, Ames Research Center
  Director, Dryden Flight Research Center
  Director, Glenn Research Center
     Director, Plum Brook Station
  Director, Goddard Space Flight Center
  Director, Jet Propulsion Laboratory
  Director, Johnson Space Center
  Director, Kennedy Space Center
  Director, Langley Research Center
  Acting Director, Marshall Space Flight Center
     Director, Michoud Assembly Facility
  Director, Stennis Space Center

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs




REPORT NO. IG-12-020                                                           37
                                                                              APPENDIX D



Congressional Committees and Subcommittees, Chairman and
  Ranking Member (continued)

     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




38                                                                  REPORT NO. IG-12-020
Major Contributors to the Report:
   Ridge Bowman, Director, Space Operations Directorate
   Karen VanSant, Project Manager
   Janice Smith, Auditor
   Troy Zigler, Auditor
   Earl Baker, Attorney-Advisor




REPORT NO. IG-12-020                                      39
                                                                                       AUGUST 9, 2012
                                                                        REPORT No. IG-12-020




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY12/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
